<html>
<title> - VARIOUS MEASURES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                            VARIOUS MEASURES
=======================================================================


                                 MARKUP

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                                   ON

           H. Res. 147, H. Res. 402, H. Res. 404, H.R. 1992,

                        H.R. 3470 and H.R. 3509

                               __________

                           NOVEMBER 20, 2013

                               __________

                           Serial No. 113-97

                               __________

        Printed for the use of the Committee on Foreign Affairs


Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 

                       http://www.gpo.gov/fdsys/

                                 ______




                  U.S. GOVERNMENT PRINTING OFFICE
85-641                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida                ALAN S. LOWENTHAL, California
TREY RADEL, Florida                  GRACE MENG, New York
DOUG COLLINS, Georgia                LOIS FRANKEL, Florida
MARK MEADOWS, North Carolina         TULSI GABBARD, Hawaii
TED S. YOHO, Florida                 JOAQUIN CASTRO, Texas
LUKE MESSER, Indiana

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director



                            C O N T E N T S

                              ----------                              
                                                                   Page

                               MARKUP OF

H. Res. 147, Calling for the release of United States citizen 
  Saeed Abedini and condemning the Government of Iran for its 
  persecution of religious minorities............................     2
  Amendment in the nature of a substitute to H. Res. 147 offered 
    by the Honorable Christopher H. Smith, a Representative in 
    Congress from the State of New Jersey........................     5
H. Res. 402, Supporting the European aspirations of the peoples 
  of the European Union's Eastern Partnership countries, and for 
  other purposes.................................................     9
  Amendment in the nature of a substitute to H. Res. 402 offered 
    by the Honorable Eliot L. Engel, a Representative in Congress 
    from the State of New York...................................    14
H. Res. 404, Expressing condolences and support for assistance to 
  the victims of Typhoon Haiyan which made landfall in the 
  Republic of the Philippines on November 8, 2013................    19
  Amendment to H. Res. 404 offered by the Honorable Edward R. 
    Royce, a Representative in Congress from the State of 
    California, and chairman, Committee on Foreign Affairs.......    23
H.R. 1992, Israel Qualitative Military Edge Enhancement Act......    25
  Amendment in the nature of a substitute to H.R. 1992 offered by 
    the Honorable Doug Collins, a Representative in Congress from 
    the State of Georgia.........................................    28
H.R. 3470, The Naval Vessel Transfer and Arms Export Control 
  Amendments Act of 2013.........................................    30
H.R. 3509, Assessing Progress in Haiti Act of 2013...............    46
  Amendment to H.R. 3509 offered by the Honorable Edward R. Royce    58
  Amendment to H.R. 3509 offered by the Honorable Matt Salmon, a 
    Representative in Congress from the State of Arizona.........    60

                                APPENDIX

Markup notice....................................................    78
Markup minutes...................................................    79
Markup summary...................................................    81
The Honorable Edward R. Royce: Statement on behalf of the co-
  chairs of the Congressional Ukrainian Caucus...................    82
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey: Prepared testimony of Naghmeh 
  Abedini, wife of imprisoned American pastor in Iran............    83


                            VARIOUS MEASURES

                              ----------                              


                      WEDNESDAY, NOVEMBER 20, 2013

                       House of Representatives,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 10:05 a.m. in 
room 2172, Rayburn House Office Building, Hon. Ed Royce 
(chairman of the committee) presiding.
    Chairman Royce. The committee hearing will come to order. I 
will ask all the members at this time if you could take your 
seats.
    Pursuant to notice, we meet today to mark up six bipartisan 
measures. As all members were notified previously to expedite 
our consideration of these items today we are going to take 
them up en bloc. The text previously provided to your offices 
by the way, you have here, and all members, if you don't have 
those before you, please ask the staff. We will make sure you 
do.
    The first is House Resolution 147, calling for the release 
of the United States citizen Saeed Abedini from Iran, and Smith 
Amendment No. 40 in the nature of a substitute. Again, without 
objection, all of these items will be considered as read and 
will be considered en bloc.
    The next is House Resolution 402, supporting the European 
aspirations of E.U. Eastern Partnership countries and Engel 
Amendment No. 46 in the nature of a substitute.
    Next House Resolution 404 expressing condolences and 
support for the assistance to the victims of Typhoon Haiyan in 
the Republic of the Philippines, and Royce Amendment No. 64 in 
that measure.
    Next is H.R. 1992, the Israel Qualitative Military Edge 
Enhancement Act, and Collins Amendment No. 29 in the nature of 
a substitute.
    Then H.R. 3470 the Naval Vessel Transfer and Arms Export 
Control Amendments Act of 2013, and lastly, H.R. 3509, the 
Assessing Progress in Haiti Act, along with Royce Amendment No. 
63 and Salmon Amendment No. 29 to that measure.
    Without objection, all members may have 5 days to submit 
statements for the record and extraneous materials on any of 
today's measures.
    And after recognizing myself and the ranking member for 
brief opening remarks, I will be glad to recognize any 
committee members seeking recognition to speak on these 
measures.
    [The information referred to follows:] H. Res. 

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Royce amendment <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Salmon amendment <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Royce. Now first, I would like to recognize myself 
in support for House Resolution 404. This is the bipartisan 
resolution I authored that expresses condolences to the victims 
of the super typhoon that hit the Philippines. And 12 days ago, 
what was one of the worst, worst typhoons on record, unleashed 
a torrent of destruction on the central Philippines so complete 
that it is very difficult for us to comprehend. As of today, 
the death toll stands over 4,000 with more than 4 million 
people displaced on the islands. Over \1/2\ million homes have 
been destroyed in the hardest hit areas.
    This bipartisan resolution expresses our condolences. The 
United States is committed to helping the Philippines. To date, 
the U.S. Government has allocated over $37 million to this 
effort. The USS George Washington is stationed offshore and is 
conducting around-the-clock efforts to transport relief 
supplies and emergency workers to affected areas. In fact, more 
than 750,000 pounds of supplies have already been delivered. 
The municipal water pumping station in Tacloban is now 
operational again, thanks to the work of the U.S. Agency for 
International Development, and thanks to the efforts of the 
Department of Defense.
    The resolution also recognizes the important role of the 
Filipino-American community in the relief effort. Many in the 
community were directly affected by the typhoon with friends 
and family still unaccounted for. Indeed, the community has 
come together to raise funds and donated needed supplies. Some 
have even traveled to the Philippines to help there. Filipino-
Americans are rightfully proud of their heritage, and they are 
committed to helping those affected by the typhoon recover and 
rebuild.
    The U.S. stands with the Philippines during its time of 
need. As the good people of the Philippines begin the difficult 
journey to recovery, the American people are here to lend our 
friendship and support.
    Second, we consider H.R. 3470, the Naval Vessel Transfer 
and Arms Export Control Amendments Act. This bill grants the 
Navy authority to transfer excess U.S. naval vessels to our 
East Asian partners, to Taiwan and Thailand, as well as to 
neighboring Mexico. By doing so, we help the Navy manage its 
inventory of decommissioned ships while strengthening the ties 
with U.S. security partners.
    Because the Navy will no longer have to store these 
vessels, the Congressional Budget Office estimates that this 
bill will save taxpayers $40 million.
    In addition, the recipient countries will pay for the 
refurbishment and upkeep of those transferred frigates, which 
is expected to result in a $50 million economic benefit for 
American workers per frigate who will do the work. This bill 
also helps expedite routine U.S. arms sales to NATO and other 
defense partners while maintaining appropriate congressional 
oversight.
    Third, we also take up Mr. Collins' bill. This is 1992, the 
Israel Qualitative Military Edge Enhancement Act. And I want to 
recognize Mr. Collins for his leadership on this important 
piece of legislation, a testament to the American people's 
enduring commitment to Israel's security.
    In 2008, Congress required the President to assess, on an 
ongoing basis, the extent to which Israel possesses a 
qualitative military edge over threats against it, which, as we 
know, are all too real.
    Currently, this assessment is done every 4 years and 
focuses on conventional military threats. This bill would 
require the Congress receive this assessment on a more timely 
basis, every 2 years, and would require the administration to 
specify in a separate, one-time report how it is integrating 
cyber and asymmetric threats to Israel into its overall 
security assistance framework.
    Next we have H.R. 3509, the Assessing Progress in Haiti 
Act, which is a bipartisan product of thorough committee work. 
Last summer, the committee received a GAO report detailing the 
startling lack of progress on U.S.-funded post-earthquake 
reconstruction efforts on the island. The committee followed up 
by sending a bipartisan delegation of staff to investigate, and 
then held a hearing on Haiti reconstruction where members asked 
tough questions about USAID efforts.
    One recommendation we heard over and over was that Congress 
needs better and more frequent reporting to ensure that we are 
being kept up to date on reconstruction activities and so that 
Congress can provide tough oversight at a time when much of the 
funding for Haiti is yet to be spent. And this bill does just 
that.
    So I commend Representatives Barbara Lee, Ranking Member 
Engel, Chairman Ros-Lehtinen and Chairman Salmon for their 
focus on Haiti and for working in a bipartisan fashion to craft 
strong oversight legislation.
    Next, I would like to thank Ranking Member Engel for his 
work on House Resolution 402 to support the European 
aspirations of the Eastern Partnership countries. The EU's 
upcoming Eastern Partnership summit, which will take place in 
Lithuania, represents an important step in the development of 
the three Eastern Partnership countries of Ukraine, Moldova and 
Georgia.
    The association agreement these countries plan to sign will 
deepen our diplomatic and economic ties with EU, representing 
not only a significant upgrade in their engagement with the 
West, but also a valuable opportunity for job creation, for 
economic growth as well. These agreements will encourage the 
countries to continue their democratic reform efforts, a 
foreign policy interest shared by the United States.
    And, lastly, I want to voice my support for House 
Resolution 147 which presses for the release and safe return of 
Pastor Saeed Abedini to his wife and young children.
    While the administration negotiations are ongoing as we try 
to negotiate with Iran in what a number of us are concerned 
might be a bad nuclear deal in Geneva this week, Iran continues 
to suppress minorities and persecute U.S. citizens. The case of 
this pastor is a particularly egregious example. This Iranian-
born American is wasting away in Iran's prison system and is 
said to be suffering from beatings. We take it seriously 
because of the hundreds of executions that have been carried 
out over the last 100 or so days in Iran. And this critical 
resolution presses for his release and calls on the 
administration to impose sanctions on those responsible for his 
imprisonment and for the regime's broader suppression of 
religious minorities.
    Many of you know the fate of the Baha'i there, the fate of 
the Christian community, the fate of some of the Jewish 
community and so forth and other minority sects in Iran.
    I will now recognize the ranking member, Mr. Engel, for his 
remarks.
    Mr. Engel. Thank you. Thank you very much, Mr. Chairman. 
Thank you for holding this markup and for advancing these 
important pieces of legislation.
    I concur with your remarks, and I, again, commend you for 
the bipartisan way that we are conducting this committee.
    Firstly, I strongly support H. Res. 147 which calls on Iran 
to release Saeed Abedini, an American citizen and Christian 
pastor. Mr. Abedini has been imprisoned in Iran since September 
2012 because the paranoid regime in Tehran believes that his 
Christian faith poses a threat to national security. He has 
been abused and tortured by Iranian authorities and denied 
medical care. And I hope the State Department and our friends 
in the international community will continue to raise this case 
directly and publicly with Iran as we all work to return him 
home safely.
    Next, I strongly support H. Res. 402, a resolution I 
authored that supports the European aspiration of states in 
Eastern Europe and the Caucasus region that belong to the 
European Union's Eastern Partnership program.
    Specifically, we support the right of Ukraine, Moldova and 
Georgia to exercise their sovereign right to deepen their 
economic and political ties with the European Union. Ukraine, 
Moldova and Georgia may conclude agreements with the EU at the 
end of the month--this month, which will strengthen democratic 
institutions, spur economic growth and bolster the rule of law, 
that is the three countries Ukraine, Moldova and Georgia. As 
such, they will benefit the region and pose no threat to any 
other state. We urge all nations to respect the right of these 
states to enter into beneficial partnerships of their choosing. 
We urge all nations, especially Russia.
    At the same time, we urge Ukraine, Moldova and Georgia to 
continue their laudable reform efforts to continue to adopt 
democratic norms and standards and to meet remaining essential 
conditions for closer relations with the European Union.
    Mr. Chairman, I am pleased to have introduced with you H. 
Res. 404, a resolution expressing deep sympathy and support to 
the Philippines following Typhoon Haiyan. You and I both 
visited the Philippines together in January, and we know that 
people there are suffering and really rely on the United States 
for help.
    This resolution expresses the commitment of the United 
States to provide assistance to help the people of the 
Philippines recover from this disaster and support for relief 
and reconstruction assistance provided by the international 
community. The typhoon that struck earlier this month caused 
massive destruction and killed thousands of people. And our 
thoughts and prayers go out to the survivors and to the 
families who lost loved ones because of the storm.
    The Philippines is a close friend and treaty ally of the 
United States, and we will continue our efforts to assist the 
Government and the people of the Philippines in the recovery.
    When we were in the Philippines, Mr. Chairman, we had an 
excellent meeting with President Aquino of the Philippines who 
is, of course, struggling to make his people whole again.
    I also support H.R. 1992, the Israel Qualitative Military 
Edge Enhancement Act. I thank Mr. Collins and Mr. Schneider for 
their role in crafting this critical piece of legislation. 
Helping Israel to maintain its qualitative military edge is 
critical to ensure our closest ally in the region has the 
resources necessary to protect itself from countries such Iran 
and others committed to its destruction.
    Specifically, this bill improves upon legislation 
previously passed by this committee by strengthening reporting 
requirements which will give Congress greater oversight over 
QME efforts. In addition, the legislation clarifies that cyber 
threats must be included in our qualitative military edge 
assessment effort.
    Again, I would like to thank Congressman Schneider and 
Congressman Collins for their work on this bill and strongly 
urge my colleagues to support it.
    I also support H.R. 3470, another bipartisan bill that 
exercises and therefore preserves, the committee's jurisdiction 
in two areas: Naval ship transfers and controls on military 
exports. The bill authorizes the transfer of six surplus U.S. 
Navy warships to three countries, two by grant to Mexico and 
Thailand, and four by sale to Taiwan. The bill also amends the 
Armed Export Control Act to update the dollar thresholds with 
congressional review of and proposed military transfers to 
other governments.
    In addition, the bill amends the AECA to preserve 
congressional oversight over military transfers that will be 
made under the administration's export control reform 
initiative.
    And, finally, I urge my colleagues to support H.R. 3509, 
the Assessing Progress in Haiti Act of 2013. This legislation 
should be understood as another step in the ongoing work of 
this committee to exercise oversight over U.S. assistance 
provided to Haiti in the aftermath of the devastating January 
2010 earthquake. We commissioned a GAO report on that 
assistance which found, among other things, that the 
administration was not providing sufficient information to the 
Congress to fulfill its oversight role. We also sent a 
bipartisan staff delegation to look into the problems GAO found 
and held a full committee hearing on that matter.
    H.R. 3509 seeks to fill the information gap by requiring 
the State Department to report on various aspects of our 
assistance program. It also includes the statement of policy 
that articulates the direction we think that assistance program 
should take. I would like to thank Barbara Lee, the original 
author of the bill, for her vision and tenacity for keeping the 
Haiti issue in front of us as well as Chairman Royce for his 
work on this bill. And this comes piggybacked on to a very 
important PEPFAR bill we passed yesterday on the floor of the 
House, which will benefit Africa and benefit Haiti as well.
    Once again, I would like to thank Chairman Royce for 
holding this markup and for working in a bipartisan way on all 
of the measures before us today. And I yield back.
    Chairman Royce. Thank you, Mr. Engel, and thank you for 
your important contribution to today's legislation.
    We are going to go now to any member seeking recognition to 
speak on the en bloc items. And Ileana Ros-Lehtinen from 
Florida, chairman of the Middle East Subcommittee.
    Ms. Ros-Lehtinen. Thank you very much. And Mr. Chairman, I 
am pleased to support all of these bipartisan measures and 
briefly speak on a few.
    Last week, our subcommittee unanimously passed House 
Resolution 147 calling on the release of U.S. citizen Saeed 
Abedini and condemning Iran for its persecution of religious 
minorities. Pastor Saeed Abedini has been sentenced to 8 years 
in prison simply for being a Christian and practicing his faith 
in Iran. Earlier this month, Saeed was transferred to a 
notorious prison reserved for Iran's most violent criminals. 
His life is in danger on a daily basis, and he is being denied 
the critical medical care that he needs.
    Passing this resolution will send a strong signal of 
support to Saeed and his family that we have not forgotten him 
and that we will continue to fight for his safe and immediate 
return and will also send a message to the regime in Tehran 
that its violations of human rights will not be ignored and it 
will be held to account.
    As the negotiations continue with Iran over its nuclear 
program, it is important to highlight just what kind of regime 
the administration is prepared to ease sanctions on in return 
for empty promises.
    Iran is a state sponsor of terrorism, is a gross violator 
of human rights that systematically violates and persecutes 
religious minorities and cracks down on civil rights.
    I also support H.R. 1992, the Israel QME Enhancement Act 
authored by our colleague, Mr. Collins. It is essential that 
Congress send a strong signal to Israel and to the world that 
we remain committed to our relationship with our friend and 
strategic ally, the democratic Jewish State of Israel.
    With Iran still on the path to develop nuclear weapons and 
the administration putting more pressure on Congress to hold 
off on increasing sanctions on Iran, rather than verifying that 
Iran will halt all of its nuclear activity, Israel has every 
reason to be concerned over her safety. That is why it is 
crucial that Israel remain not just one step ahead of her 
enemies in the region, but light years ahead. There is no room 
for error here. Israel must maintain it qualitative military 
edge over its foes because her very survival depends on it.
    I would also like to commend Chairman Royce and Ranking 
Member Engel for bringing forward House Resolution 404 to 
express condolences and support for assistance to the victims 
of the typhoon in the Philippines. I joined a bipartisan 
congressional letter earlier this week asking the Department of 
Homeland Security to offer TPS (temporary protected status) to 
nationals of the Philippines.
    And as we continue to assist and provide assistance to the 
people of the Philippines, we must also learn from our mistakes 
from the past when it comes to providing assistance after 
natural disasters.
    Our reconstruction efforts after the Haiti earthquake from 
2010 are still ongoing, and it is our responsibility to 
advocate for greater transparency and accountability on the use 
of U.S. taxpayer dollars. So I join my colleagues Barbara Lee, 
Chairman Royce and Ranking Member Engel in introducing H.R. 
3509, the Assessing Progress in Haiti Act.
    This important bill calls on the Department of State to 
submit a report on the status of post-earthquake recovery and 
development efforts in Haiti. The report will help ensure that 
our assistance dollars to the Haitian people are going to those 
who really need it, and not to waste, fraud and abuse. 
Elections in Haiti have been delayed for 2 years--over 2 
years--and that is simply unacceptable. This bill reaffirms our 
commitment to the fundamental principles of holding free, fair, 
and transparent elections in accordance with the Haitian 
Constitution.
    Passing this legislation, therefore, Mr. Chairman, will 
send a clear message that we want elections to be scheduled 
very soon without any more delays in order to improve the 
political--the volatile political environment in Haiti, and 
help the lives of the Haitian people. Our south Florida 
community is blessed to have a vibrant Haitian-American 
community, and the diaspora keenly follows the developments in 
Haiti.
    Thank you, Mr. Chairman, for the time.
    Chairman Royce. Thank you. We are going to go to Mr. David 
Cicilline of Rhode Island, who is recognized now.
    Mr. Cicilline. Thank you, Mr. Chairman.
    First, I want to thank you, Mr. Chairman, and Ranking 
Member Engel for your leadership and for the bipartisan manner 
in which we are marking up these bills. I appreciate the smooth 
and deliberate way in which the package of legislation is being 
handled and proudly support all the legislation contained in 
this en bloc package.
    In particular, I would like to thank the committee for 
moving forward on House Resolution 404 regarding the 
devastation left in the Philippines in the wake of this 
devastating typhoon. I have expressed my condolences and the 
sympathy of the First District of Rhode Island and will 
continue to do so as the death toll rises and damage reports 
increase.
    I want to reiterate that the resolution expresses 
solidarity with the people of the Philippines and affirms our 
commitment to provide essential assistance.
    Similarly, I have made resources available to my 
constituents who would like to help those suffering the loss of 
life and destruction of property in the Philippines.
    In addition, as we consider H. Res. 402, supporting the 
European aspirations of the people of the European Union's 
Eastern Partnership, I want to stress the importance of the 
adoption of democratic social norms by these countries along 
with their economic integration. Over the past several years, 
we have seen some impressive improvements to the human rights 
of individuals in Moldova, Ukraine and Georgia. While the 
situation isn't perfect, the trend is generally positive and 
deserves our ongoing support.
    I was pleased that the Moldovan Government took actions 
last year to reverse some locally passed laws which restricted 
the rights of all Moldovans who support the human rights of 
LGBT persons. These local ordinances were passed most all of 
them under pressure of the local Communist Party or the Eastern 
Orthodox Church, which is in close contact with the leadership 
of the Russia Orthodox Church in Moscow.
    The human rights of LGBT individuals were further 
strengthened in Moldova as part of the Eastern Partnership 
effort. In order to ease travel restrictions and simplify 
tourist visas for Moldovan citizens to EU countries, the 
Moldovan Parliament was asked and agreed to pass legislation to 
ensure that individuals cannot be fired from a job on the basis 
of his or her sexual orientation or gender identity. Indeed, I 
look forward to the day when similar legislation will pass here 
in the United States and in the House of Representatives as it 
did earlier this month in the Senate with broad bipartisan 
support.
    Improving relations with the European Union does not and 
should not harm the important relationships these countries 
have with their largest neighbor, Russia. Unfortunately, Russia 
has increased threats against Eastern Partnership countries 
unnecessarily threatening important trade and energy ties. 
Nevertheless, I am pleased to see several countries take steps 
to better protect and support religious minorities, LGBT 
individuals and other marginalized communities. I am thankful 
for the Eastern Partnership countries that have overcome 
Russia's efforts to dissuade them from social progress.
    In Ukraine, Georgia and Moldova, the governments and 
peoples are quickly realizing that protecting the rights of the 
minority ensures the fundamental freedoms enjoyed by the 
majority. Certainly sexual orientation and gender identity 
remain controversial issues in Eastern Europe, as is the case 
in some parts of our own country. But we all know that the 
right to organize, to march, to display pride, is healthy for 
us as a country. These countries deserve our support and that 
of the EU. I commend the chairman and ranking member for moving 
this important piece of legislation and look forward to its 
passage.
    And finally I urge my colleagues to support H.R. 1992 that 
will increase the frequency of review of Israel's qualitative 
military edge and add to requirements that such reviews include 
cyber and asymmetric threats. This legislation will enhance our 
national security interests as we better understand Israel's 
military capability and ensure that they have the necessary 
resources for their defense as our most important ally in a 
very volatile region of the world.
    I thank you, Madam Chairman, and yield back.
    Ms. Ros-Lehtinen [presiding]. Thank you, Mr. Cicilline.
    Chairman Smith of New Jersey is recognized.
    Mr. Smith. Thank you very much, Madam Chair.
    Let me just say to my colleagues, H. Res. 147, introduced 
by our distinguished colleague, Dr. Cassidy, is an excellent 
resolution, but it was introduced in April, and what we are 
doing in the amendment in the nature of a substitute is 
expanding from 6 to 18 the whereas clauses and adding one line 
holding--trying to hold Iran to account--it is a signatory to 
the International Covenant on Civil and Political Rights, so 
international agreements are important and when they sign 
something, they should be willing to live up to it.
    Last March, Congressman Chairman Frank Wolf chaired a 
hearing that was called the Worsening Plight of Religious 
Minorities in Iran. His key witness was Naghmeh Abedini, the 
wife of Saeed Abedini. And I would just like to quote--it is 
long and I would ask unanimous consent that her full statement 
be made a part of the record.
    Ms. Ros-Lehtinen. Without objection.
    Mr. Smith. Just a couple of lines pulled from that 
testimony which underscores the awful plight of this great 
pastor who went back to Iran--he is an American--to establish 
an orphanage. He was given an assurance by the Government of 
Iran that he would not be, in any way, interfered with and 
certainly wouldn't have been arrested. He was accused in the 
past of proselytizing his Christian faith, and for that he had 
been beaten, and he is now serving an 8-year sentence. He has 
been subjected to repeated beatings. He is now in a prison 
where we are all very fearful for his life. He has several 
people in his very cell who are convicted murderers. And one of 
the modus operandi of anyone who has ever worked on human 
rights know is that both the Communists and many of these 
dictatorial regimes often put political and religious 
prisoners, democracy activists, into a prison cell that has 
people in it who have committed heinous crimes and as a quid 
pro quo, ``Take care of our problem and you will get a lighter 
sentence.'' It happens over and over again. So we are bringing 
additional attention to that very serious deterioration of 
Pastor Abedini's case.
    Here is what Naghmeh said: ``We have two kids, Rebekka 
Grace who is 6 years old and Jacob Cyrus who is 4 years old. A 
day does not go by that they do not ask for their daddy. A day 
does not go by that they do not long for him. Most nights, they 
cry themselves to sleep, wanting daddy home.'' She goes on to 
say it is unfortunate that Christians are the number one 
persecuted people in the world, but not much attention and 
effort is being taken to protect their religious liberty. She 
points out how he went back to establish the orphanage and all 
of that is in her statement and I summarized it very briefly. 
She has said Saeed has endured beatings, internal bleeding, 
death threats, and continuous psychological torture, all 
because he will not deny his Christian faith.
    Naghmeh said, and this was very unfortunate, I must tell 
you, ``I am disappointed in my government. I am disappointed 
that our President and our State Department have not fully 
engaged this case--disappointed that this great country is not 
doing more to free my husband, a U.S. citizen.'' She goes on, 
``Yes, we are both proud to be American citizens. And I expect 
more from our government.''
    As a direct result of that hearing and her testimony, I am 
happy to report that Secretary of State Kerry did make an 
intervention, as did the State Department, but this needs to be 
ongoing, consistent and persistent, and certainly sustained in 
order to effectuate his release.
    I do hope members will support the resolution, they already 
have because we are now on the debate portion. But this man 
needs to be freed, and his plight needs to be echoed throughout 
parliaments throughout the world in Europe and elsewhere on his 
behalf.
    And secondly, Madam Chair, I would just like to say I 
strongly endorse a resolution expressing our empathy and 
sympathy for all those have who suffered from the typhoon. Yes, 
there have been approximately 4,000 deaths, 10,000 people who 
have been now affected by this horrific storm.
    The United Nations has suggested, made a call for $301 
million. The United States has come forward with $37 million. 
The Catholic Relief Services alone, one NGO, and they just had 
a massive collection in every Catholic church throughout the 
country to raise this money, has pledged $20 million.
    I would respectfully submit $37 million needs to be looked 
at as a down payment. The needs are overwhelming and my hope is 
that we will be more generous. The same thing happened during 
the tsunami in 2004 and I traveled to Banda Aceh, Phuket, and 
Sri Lanka, and many of us who came back were very concerned 
that our paltry commitment in 2004 in no way came near to what 
was needed. I see a deja vu occurring here, Madam Chair. We 
need to do more. There are assessment teams on the ground. My 
hope is that the Congress will robustly support the Filipino 
people.
    Two major problems, and I will be very brief in this. I am 
very concerned about the trafficking situation there and we 
have asked a number of questions about what is being done to 
mitigate any trafficking under the chaos of the storm. And, 
secondly, very often, and this happened in Haiti, the higher 
death count is attributed to typhoid, cholera, and other 
diseases that manifest after the fact. I am not convinced we 
are doing enough to ensure that people are properly protected 
from the epidemics that could ensue in the days and weeks that 
follow. I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Smith.
    Mr. Schneider of Illinois.
    Mr. Schneider. Thank you, Madam Chairman. I want to thank 
Chairman Royce and Ranking Member Engel for the bipartisan 
leadership they have shown and continue to show on this 
committee and the committee itself for its example of 
collaboration that should be a lesson for us all.
    I am pleased to support all of these bipartisan measures. I 
join with my colleagues in extending condolences to the people 
of the Philippines in the aftermath of the typhoon.
    Specifically, I wish to speak on the H.R. 1992, the Israel 
Qualitative Military Edge Enhancement Act. I am most grateful 
for the collaboration of my friend, Mr. Collins. I want to 
thank the chairman and the ranking member for working 
diligently with my office and Representative Collins to bring 
this important legislation before the committee.
    Israel stands at a historic juncture. It is in an 
increasingly dangerous neighborhood at an increasingly 
dangerous time. Israel must have the capabilities to deal with 
a broad spectrum of potential threats.
    That is why we introduced this important and timely bill to 
help further safeguard the technological edge that Israel has 
and must always have in defending the country and safeguarding 
her citizens. This bill expands upon existing requirements that 
the United States aid Israel in developing defense systems 
capable of safeguarding our most important regional ally, 
Israel, against both conventional and asymmetrical threats.
    Significant examples of this cooperation include the highly 
successful, game-changing Iron Dome anti-missile system, as 
well as the ongoing development of the Arrow and David's Sling. 
Israel now faces dramatically evolving threats of regional 
insecurity, including a virtual failed state on its border with 
Syria, tens of thousands of rockets and mortars being 
stockpiled by Hezbollah on the north, continued rocket fire 
from Hamas in the Gaza Strip, and increasing terrorist activity 
in the Sinai. But most importantly the existential threat of 
Iran and its nuclear program. The U.S. can and will continue to 
do more to aid Israel in addressing all these threats in a 
comprehensive way.
    The bill before us today would specifically encourage 
greater coordination between Israel and United States in 
developing new weapons, tactics and procedures to confront the 
growing threats of cyber warfare, asymmetrical military 
threats, and ongoing terrorist activity. Increased reporting 
and coordination will allow the United States and Israel to 
continue their mutually beneficial research and intelligence 
programs to save lives and create a more secure and prosperous 
region.
    I want to, again, thank the chair and ranking member for 
their support of this legislation. I also want to thank Mr. 
Collins for the hard work we have done to hone this bill over 
the last few months. I ask that my colleagues join me in 
support of this bill and the others today and yield back the 
balance of my time.
    Ms. Ros-Lehtinen. Thank you, sir. Mr. Marino of 
Pennsylvania is recognized.
    Mr. Marino. Thank you, Chairwoman. I want to address House 
Resolution 402 supporting the EU's Eastern Partnership 
countries. The bill would express Congress' support for the 
expansion of the EU to include Georgia, Moldova and the 
Ukraine. Russia does not like this possibility. Russia wants to 
continue to control the former Soviet states, and Russia sees 
the European Union expansion as a threat to Russia's power in 
the region.
    Russia is doing all it can to stop these former Soviet 
states from siding with Western countries, in part by cutting 
off natural gas to these countries or spiking the cost of 
natural gas and by pushing these countries to enter trade 
compacts with Russia if--if they promise not to enter into 
similar agreements with the EU.
    I support the efforts of Georgia, Moldova and Ukraine to 
enter into agreements with the European Union. I also hope the 
administration expresses similar support and takes the steps 
necessary to ensure it in a smooth and easy transition.
    I yield back my time. Thank you.
    Ms. Ros-Lehtinen. Thank you sir. Mr. Connolly of Virginia.
    Mr. Connolly. Thank you, Madam Chairman.
    I, of course, support all of the bills on our agenda. I 
particularly highlight the Haiti legislation. This is a country 
devastated by an earthquake, and its recovery has been slow and 
painful and uneven at best. There are issues about coordination 
among NGOs, there are issues about frankly the distribution of 
our own bilateral assistance, there are issues about the 
multilateral response to this tragedy. This is a country that 
is not far away. It is in our backyard. And if we can't get 
coordinated assistance when we have had this kind of tragic 
development right in our own backyard, I think it calls into 
question the efficacy of our ability to deliver aid effectively 
anywhere. And so I think it is really important we focus on 
Haiti, and I am delighted to see this legislation on the 
agenda, and I would hope that the committee would continue to 
monitor this very carefully as we move forward.
    I yield back. Thank you, Madam Chairman.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Collins of Georgia.
    Mr. Collins. Thank you, Madam Chair. I appreciate the 
willingness of the chairman and you, as well, in your 
willingness to work with me on this important bipartisan bill. 
I want to thank the committee, and really this committee is one 
of the few places I believe left in Congress where we do have 
bipartisanship as the norm and not the exception, and that is 
always a good thing to see.
    I would also like to thank my friend<greek-l>s deg. from 
Illinois, Mr. Schneider, and his staff<greek-l>, deg. for their 
work on this legislation. It is amazing when we work together 
and what your staff has done and the others who have come 
across on this bill has been really good to see along with the 
chairman and the ranking member who have been so good friends 
with this as well. So I want to thank you for all your hard 
work.
    The U.S. has stood with Israel from its inception 65 years 
ago, and our countries remain close allies for a good reason. 
America and Israel share many of the same goals. Both countries 
have strong expressed desire to protect their citizens from 
harm, to promote the principles of democracy, and to promote a 
stable and prosperous Middle East. The benefits of the Israeli-
American relationship are undeniable. Our alliance has been 
vital for each nation's intelligence gathering efforts 
resulting in many lives saved.
    I introduced H.R. 1992 because I believe that America's 
support for Israel must be responsive to the changing threats 
facing our allies. This week the United States and other member 
nations are meeting to discuss Iran's nuclear program. Iran's 
ambitions are no secret, and they currently possess the proper 
quantity and type of materials to make nuclear weapons.
    But Iran's nuclear program is not the only threat to 
Israel. I am very concerned by the cyber threats attacks that 
have been launched against the country. Nations in the region 
are increasingly using cyber warfare as a means to cripple 
infrastructure and violently disrupt the security of this 
peace-loving nation.
    H.R. 1992 directs the President to report to Congress every 
2 years--current law requires for it every 4 years--regarding 
the assessment of Israel's qualitative military edge over 
military threats to Israel and related weapons sales in the 
Middle East.
    Additionally, it directs the Secretary of State to report 
on cyber and asymmetric threats in reference to Israel. I 
believe this legislation represents an effective way to promote 
U.S.-Israeli relationships in a bipartisan manner. Given recent 
developments in the region, there is no better time to ensure 
that Congress has the most complete and up-to-date information 
regarding Israel's qualitative military edge.
    The very real threats of cyber attacks and asymmetrical 
warfare in Israel must be taken into account as our nations 
continue to fight against terrorism in the 21st century.
    This legislation ensures that the United States' commitment 
to Israel's qualitative military edge remains substantial and 
meaningful. It provides Congress the ability to continue its 
oversight of weapons sales to the Middle East at an increased 
regularity by reviewing arms sales from 4 to 2 years.
    I am very appreciative to the chairman for allowing this 
piece of legislation to come before the committee. Ranking 
Member Engel, <greek-l>for  deg.your support brings increased 
probity to the bill. And Mr. Schneider, you have been, again, 
such a great partner on this relationship. You are such a 
dedicated advocate for U.S.-Israeli relationships as it stands, 
and I, like too many here, and also Ms. Gabbard, I also 
appreciate your early support of this legislation, as well. And 
I urge my colleagues to support the bill, and I yield back.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Lowenthal of California.
    Mr. Lowenthal. Thank you, Madam Chair, and I join with my 
colleagues in thanking Chairman Royce and Ranking Member Engel 
for conducting these--all the hearings on the Foreign Affairs 
Committee in such a bipartisan way. It really is a pleasure to 
come to this committee. And I also want to express, voice my 
support for all the bills. But I would really like to talk 
about one aspect of H.R. 3470, which is the Naval Vessel 
Transfer and Arms Export Control Amendments, but that specific 
part of the H.R. 3470. And I want to thank Chairman Royce and 
Ranking Member Engel and your staff for your working on this 
bill.
    The title 2 of H.R. 3470 contains important improvements in 
the licensing of U.S. exports under the Arms Export Control 
Act. These improvements that are included in this bill will 
streamline our congressional review of pending licenses by 
focusing our committee's oversight on major defense transfers. 
This is accomplished by updating the dollar thresholds under 
the Arms Export Control Act for export cases that are subject 
to congressional scrutiny.
    This is the first updating in many years. When enacted, 
this will focus congressional attention on the truly important 
defense exports. Many of the U.S. companies that export defense 
articles are located in southern California especially in and 
near my congressional district. The California aerospace 
industry will definitely benefit from this bill. In addition, 
the Port of Long Beach, which I represent, will also definitely 
benefit by a more efficient export licensing procedure, 
speeding approvals and contributing to U.S. firms winning more 
export sales.
    While streamlining defense export licensing, this bill also 
adjusts the congressional review process to benefit with the 
reforms that the Obama administration is now beginning to 
implement under its Export Control Reform Initiative.
    In sum, this bill makes improvements for American defense 
exporters and focuses congressional oversight on the 
significant transfers that warrant close scrutiny.
    Madam Chair, I yield back my time.
    Ms. Ros-Lehtinen. Thank you, sir. Mr. Meadows of North 
Carolina is recognized.
    Mr. Meadows. Thank you Madam Chair.
    And I just want to thank my colleagues, Mr. Collins from 
Georgia and Mr. Schneider, for working so diligently on H.R. 
1992. Early on, they worked with the committee here who just 
have done an outstanding job in making sure not only this 
legislation is ready to be brought to the floor, but that it 
addresses the key concerns in terms of our allies. So I just 
want to thank the gentlemen, and obviously it has my support.
    I want to speak briefly, though, on Pastor Saeed Abedini. 
It is very troubling that here we are in the middle of 
negotiations with Iran, and a pastor is being held, quite 
frankly, in a very dangerous situation, a gesture of good will 
by that country that would transcend not only just one state to 
another, but much of our Nation and show that, indeed, that our 
two countries are ready for some type of bilateral talks on a 
foundation of mutual respect, you would think that releasing 
Pastor Saeed Abedini would be an easy lift. And yet here we are 
having to pass a resolution condemning that action.
    And, Madam Chair, you have been a strong voice for those 
who are held in foreign countries against the international 
norms that are there. I applaud you on your unrelenting voice. 
I join you and urge the Iranian people to look at this 
injustice and let Pastor Saeed Abedini go.
    I yield back.
    Ms. Ros-Lehtinen. Thank you, sir.
    Mr. Keating of Massachusetts is recognized.
    Mr. Keating. Thank you, Madam Chair. I would like to voice 
my support for all the initiatives on today's markup but I 
would like to thank, in particular, Chairman Royce and Ranking 
Member Engel for working with me on House Resolution 402. As an 
original cosponsor and as ranking member of the Subcommittee on 
Europe, Eurasia, and Emerging Threats, I believe it is 
important for the United States to show its support for the 
European aspirations of the six Eastern Partnership countries.
    Next week in Vilnius at the summit, three of these 
countries are poised to take truly historic steps forward. 
Twenty-five years ago, no one could have imagined that Georgia, 
Moldova, and Ukraine, then Soviet Republics, would be on the 
verge of signing or initialing association agreements with the 
European Union. Their laudable progress demonstrates each 
country's resilience and the strengths of their citizenry's 
desire for a transparent governance and a rule of law.
    In addition to the association agreements, which include a 
key free trade component, the EU recently launched the Eastern 
Partnership transport network to improve the roads, rails and 
ports of the Eastern Partnership countries and to link them 
with the EU's own transportation system.
    I strongly believe the United States should support the 
Eastern Partnership transport network by working closely with 
the EU, international donors and hosts of countries to improve 
their infrastructure and regulatory mechanisms to facilitate 
more trade with the EU between Europe and Asia. This will also 
support the broader ``New Silk Road'' vision that is coming to 
connect Central and South Asia to larger markets and help 
transform the northern distribution network, also known as the 
NDN, into a viable, commercial corridor.
    Although these agreements and initiatives pose no threat to 
other countries, Russia has sought to undermine Ukraine, 
Moldova and Georgia and threaten to retaliate further if they 
move forward with association agreements with the EU.
    Madam Chairman, it is important for the United States to 
support Georgia, Moldova, and Ukraine at this historic moment. 
It is equally important that we make clear that Russia's 
behavior in this regard is unacceptable.
    With that, I yield back.
    Chairman Royce [presiding]. We thank the gentleman for 
yielding back. I think we have two remaining speakers, our 
Western Hemisphere chairman, Matt Salmon from Arizona, followed 
by Mr. Deutch from Florida.
    Mr. Salmon. Thank you, Mr. Chairman.
    First of all, I want to commend you and the entire 
committee for all of this bipartisan legislation today, which I 
believe it has been said before that this is probably one of 
the last committees in all of Congress that does things in such 
a bipartisan way, and I think it is wonderful. It is a good 
example to set for the other committees, as well.
    I want to thank you, Mr. Chairman, for working with me and 
accepting my amendments strengthening some of the reporting 
requirements for the H.R. 3509. The Haitian funding bill is 
incredibly important, but it is important, also, that we make 
sure that our taxpayers are actually getting what they expected 
and what they are paying for when it comes to getting money to 
a very, very badly needed place in the globe and in the 
hemisphere.
    This language that Mark Walker was able to strengthen and 
put together I believe makes it clear that the USAID and 
taxpayer funds must be spent wisely and in accordance with the 
policies that are outlined in this bill.
    In addition, I appreciate the opportunity to work the with 
committee staff on the other side of the aisle, as well. I know 
that Mark was able to lead a staff delegation over there not so 
long ago and found while there are still some troubling things, 
there are some very positive things. And we want to focus on 
both of those things.
    When the 2010 earthquake struck our neighbors in Haiti, the 
U.S. was swift with our response and promised to be a major 
part of the long-term recovery process. Our citizens have been 
generous in both the $3.6 billion in taxpayer funds dedicated 
to the recovery, but also billions in private funds have flown 
to assist Haitian recovery to help them rebuild.
    But it is our obligation here in Congress to make sure 
these funds are spent efficiently, effectively and 
transparently. After the GAO's critical report, this bill will 
help to address the lack of transparency and accountability 
that our aid to Haiti has suffered to date. As we learned from 
our hearing in our subcommittee last month, Haiti has a long 
way to go in their recovery, and it is important that the 
Haitian Government work diligently to improve the investment 
climate in their country and move toward free and fair 
elections and make sure that a democratic process moves 
forward.
    I have been very, very disappointed in reports from the 
government that are harassing U.S. companies who are trying to 
do business in the country, and sadly reports like that are 
going to have a long-term impact on investment in Haiti.
    I believe that if they want to go forward in a very, very 
positive way, they have got to improve the rule of law there, 
make sure that they don't shake down foreign business 
interests. And finally, as incorporated in this bill, I 
strongly urge the Government of Haiti to move forward with 
those elections as soon as possible. The people of Haiti 
deserve a voice in their government, and I think it is just 
plain fair and common sense, but thank you and I yield back the 
balance of my time.
    Chairman Royce. Thank you, Mr. Salmon. I want to thank you 
for your excellent contribution to the focus on Haiti and also 
for promoting trade investment in this hemisphere. And we 
appreciate that very much.
    We are going to go turn now to recognize Ted Deutch of 
Florida.
    Mr. Deutch. Thank you, Mr. Chairman.
    Mr. Chairman, I am pleased to lend my support to these good 
bills. I would like to thank Congressman Collins and 
Congressman Schneider for introducing the Israel QME 
Enhancement Act. This bipartisan legislation emphasizes 
Congress' commitment to ensuring Israel's qualitative military 
edge, a central component of Israel's security.
    We talk a lot about the importance of bipartisanship in 
Congress when it comes to Israel's security, and it is thanks 
to members like Mr. Schneider and Mr. Collins that we can work 
across the aisle to further this kind of critical cooperation 
and I applaud their efforts.
    The United States has committed to ensuring Israel's right 
and ability to defend herself against any threat, period. But 
in its violent neighborhood, Israel can face threats at each of 
her borders at any moment from the risk of spillover from the 
Syrian conflict, rockets from Hamas and Hezbollah, and the ever 
present existential threat from potentially nuclear-armed Iran.
    This legislation will provide Congress with greater 
oversight when it comes to Israel's qualitative military edge. 
By the increasing reporting requirements on QME from every 4 
years to every 2 years, we can continue to ensure that our 
great ally, Israel, has the capabilities to counter any and all 
threats.
    In addition, it is the strategic cooperation with Israel 
that ensures greater interoperability with our own military to 
defend our security interests in the region.
    I also want to expresses my support for H. Res. 147 which 
condemns the Government of Iran for its persecution of 
religious minorities, including Saeed Abedini. The recent 
reports that Pastor Abedini was recently moved to a more 
dangerous facility outside of Tehran further demonstrates the 
U.S. must do everything in our power to end his continued and 
unjust imprisonment. However, this markup also provides an 
opportunity to highlight what is not being talked about in 
Geneva--Iran's egregious human rights violations.
    While preventing Iran from obtaining nuclear weapons 
capabilities is our paramount objective, it should not impact 
our support for human rights in Iran. Iran's vile mistreatment 
of its people is not new. But since taking office, President 
Rouhani has spoken about the need to repair Iran's 
relationships with the world and ensure the rights of his 
people.
    Unfortunately, his rhetoric has not been matched with 
action. Hundreds of political prisoners remain in prison. This 
year alone, more than 500 Iranians have been executed double--
double Ahmadinejad's last year in office.
    In the past month, there has been a stunning wave of 
oppression targeting the media and civil society that included 
the banning of a prominent reformist daily and the arrest of a 
prominent and politically-minded actress.
    Iran is also suspected of having significant knowledge as 
to the whereabouts of my constituent, Robert Levinson. As many 
of you know, in March 2007, Robert Levinson was taken hostage 
while visiting Iran's Kish Island. A retired FBI agent, 
husband, father to seven children, and grandfather of two, Mr. 
Levinson has missed 6 years' worth of birthdays, anniversaries, 
weddings and other important milestones. Next Tuesday, Robert 
Levinson will have been held captive for 2,455 days making him 
the longest held American hostage in our Nation's history.
    Now as Iran continues to flagrantly violate basic human 
rights, we must continue to press Iran to treat their people 
with due process and with fairness, and we must act to ensure 
the release of all political prisoners, including Pastor 
Abedini, Amir Hekmati, and we must do everything we can to 
bring Robert Levinson home to his family. This markup is an 
important step.
    Finally, Mr. Chairman, I would like to thank you, the 
ranking member and Congresswoman Lee for introducing H.R. 3509, 
the Assessing Progress in Haiti Act of 2013. We are privileged 
to have a strong Haitian diaspora in south Florida, and I know 
how much they appreciate Congress' commitment to reconstruction 
and stabilization efforts in Haiti. We must continue to provide 
strong oversight to ensure that our aid dollars are helping 
Haiti rebuild critical infrastructure, promote good governance 
and rule of law and provide much-needed access to health care 
and to education.
    Again, I thank all of the bill's sponsors, and I look 
forward to the final passage of this good legislation.
    Chairman Royce. Well, thank you Mr. Deutch.
    Hearing no further requests for recognition, the question 
now occurs on agreeing to the items being considered en bloc: 
All those in favor, signify by saying aye.
    [Ayes.]
    Opposed, no.
    In the opinion of the Chair the ayes have it and the items 
are considered en bloc and agreed to. And without objection the 
measures agreed to en bloc, House Resolution 147, as amended; 
402, as amended; 404, as amended; 1992, as amended; 3470; and 
3509, as amended, these measures are considered favorably 
reported to the House.
    Staff are directed to make technical and conforming 
changes. And just in closing, I want to thank our ranking 
member, Mr. Engel, and all of the committee members for their 
contributions and for their assistance in today's markup.
    The committee stands adjourned.

    [Whereupon, at 11 o'clock a.m., the committee was 
adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


 <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Material submitted for the record by the Honorable Edward R. Royce, a 
Representative in Congress from the State of California, and chairman, 


                      Committee on Foreign Affairs


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Material submitted for the record by the Honorable Christopher H. 
Smith, a Representative in Congress from the State of New Jersey


<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
